Counsel for Respondent - State of Texas
KEN PAXTON
Attorney General of Texas
JEFFREY C. MATEER
First Assistant Attorney General
DARREN L. MCCARTY
Deputy Attorney General for
Civil Litigation
THOMAS A. ALBRIGHT
Chief - General Litigation Division
ANNE MARIE MACKIN
Assistant Attorney General
Office of the Attorney General
P.O. Box 12548, Capitol Station
Austin, Texas 78711-2548
Phone: 512-463-2798
Facsimile: 512-320-0667
* 3 copies
Counsel for Amici Curiae – Ysleta del Sur Pueblo
Alabama-Coushatta Tribe of Texas, National Congress of American Indians, National
Indian Gaming Association, and USET Sovereignty Protection Fund
Frederick R. Petti
Patricia L. Briones
Petti & Briones PLLC
8160 East Butherus Drive, Suite 1
Scottsdale, Arizona 85260
* 1 copy
Danny S. Ashby*
Counsel of Record
Justin R. Chapa
Megan R. Whisler
Morgan, Lewis & Bockius LLP
1717 Main Street, Suite 3200
Dallas, Texas 75201
(214) 466-4000
danny.ashby@morganlewis.com
* 1 copy

